Audit of USAID/Jordan’s Microfinance
Activities

Audit Report No. 6-278-04-001-P
October 1, 2003




                  Cairo, Egypt
(“This page intentionally left blank.”)
October 1, 2003

MEMORANDUM
FOR:          Director, USAID/Jordan, Anne Aarnes

FROM:         RIG/Cairo, Darryl T. Burris /s/

SUBJECT:      Audit of USAID/Jordan’s Microfinance Activities
              (Report No. 6-278-04-001-P)

This is our final report on the subject audit. We reviewed your comments to our
draft report and included them as Appendix II to this report.

The report recommends that USAID/Jordan (1) require that a data quality
assessment of microfinance results be performed before using such results in the
Mission’s 2004 Annual Report, and (2) develop a procedure to verify that results
included in the Mission’s Annual Report have had data quality assessments.

Based on your comments to our draft report, we consider that a management
decision has been made on Recommendation No. 1 and that final action has
occurred on Recommendation No. 2. In regards to Recommendation No. 1, please
notify the Bureau for Management’s Office of Management Planning and
Innovation when final action is complete.

I appreciate the cooperation and courtesy extended to my staff by USAID/Jordan
and its microfinance institutions during the audit.




                                                                                   1
(“This page intentionally left blank.”)




                                          2
Table of   Summary of Results                                                5
Contents
           Background                                                        5

           Audit Objectives                                                  6

           Audit Findings                                                    7

                  Had USAID/Jordan administered microfinance activities
                  in accordance with applicable USAID guidance?              7

                            Three Microfinance Institutions Did Not Focus
                            On Poor People                                   8

                  Had USAID/Jordan’s microfinance activities progressed
                  towards their intended results?                            9

                            USAID/Jordan Needs To Perform Data Quality
                            Assessments Of Reported Microfinance Results    10

           Management Comments and Our Evaluation                           12

           Appendix I – Scope and Methodology                               13

           Appendix II – Management Comments                                15

           Appendix III – Summary of USAID/Jordan’s Microfinance
                          Results for Calendar Year 2002                    17




                                                                                 3
(“This page intentionally left blank.”)




                                          4
Summary of   Regional Inspector General/Cairo audited USAID/Jordan’s microfinance
Results      activities to determine if (1) the Mission administered the activities in accordance
             with applicable USAID guidance and (2) the activities had progressed towards
             their intended results. (See page 6.)

             USAID/Jordan administered its microfinance activities in accordance with
             applicable USAID guidance, but three of four microfinance institutions did not
             focus on reaching poor people. We did not make a recommendation to address
             this issue because missions have flexibility in structuring their lending programs
             and the extent to which they target the poor. (See pages 7 – 9.)

             In regards to intended results, USAID/Jordan’s microfinance activities had mixed
             results for calendar year 2002. One indicator (number of borrowers) fell short of
             its target by 21 percent, but another indicator (number of repeat borrowers)
             exceeded its target by 2 percent. Mission officials were unaware that they had
             fallen short of their targeted number of borrowers because they had not assessed
             the quality of data reported to them by microfinance institutions. Consequently,
             they had inadvertently reported inaccurate microfinance results. (See pages 9 –
             11.)

             To address this issue, we recommended that (1) the Mission perform a data
             quality assessment of microfinance results before including such results in its
             2004 Annual Report and (2) the Mission develop a procedure to verify that results
             included in the Mission’s Annual Report have had data quality assessments. (See
             page 11.)

             USAID/Jordan agreed with the two recommendations. Based on the Mission’s
             response to our draft report, we determined that a management decision has been
             made to address Recommendation No. 1 and that final action has been taken on
             Recommendation No. 2. (See page 12.)




Background   In 1994, USAID launched a “Microenterprise Initiative” in partnership with the
             Congress. The initiative committed to expanding funding for microenterprise
             programs and set a goal that one-half of all microenterprise resources would
             support programs and institutions that provide credit to the poorest, with loans
             under $300. In October 2000, the President signed the Microenterprise for Self-
             Reliance and International Anti-Corruption Act of 2000. The purposes of the Act
             included, among others, making microenterprise development an important
             element of United States foreign economic policy and assistance, and providing
             for the continuation and expansion of USAID’s 1994 Microenterprise Initiative.




                                                                                           5
             In support of USAID’s microenterprise program, in January 1998 USAID/Jordan
             initiated an $18.4 million microfinance initiative under its $57 million Access to
             Microfinance and Improved Implementation of Policy Reform Program (AMIR
             1.0). The initiative primarily involved four institutions and aimed to increase the
             sustainable delivery of financial services to microentrepreneurs, including small
             and medium enterprises and women entrepreneurs. The microfinance program
             ended on July 31, 2002, and cumulative microenterprise-related expenditures as
             of December 31, 2002, totaled $18.4 million.

             In August 2002, the Mission began a three-year $59 million follow on program
             (AMIR 2.0) of which $9 million was budgeted for microenterprise initiatives,
             including the development of microfinance institutions, microenterprise business
             development, and microenterprise innovation grants. Microenterprise-related
             expenditures under the follow on program totaled $1.1 million as of December 31,
             2002.

             Our audit focused on calendar year 2002, and thus, covered the end of the initial
             microfinance program and the beginning of the follow on program.
             USAID/Jordan’s strategic objective team for increased economic opportunities for
             Jordanians had responsibility for both programs.



Audit        As a carryover audit from our fiscal year 2002 audit plan, our audit aimed to
Objectives   answer the following two questions:
                •   Had USAID/Jordan administered microfinance activities in accordance
                    with applicable USAID guidance?
                •   Had USAID/Jordan’s microfinance activities progressed towards their
                    intended results?

             Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                          6
Audit Findings   Had USAID/Jordan administered microfinance activities in accordance with
                 applicable USAID guidance?

                 USAID/Jordan administered microfinance activities in accordance with applicable
                 USAID guidance, but three of four microfinance institutions did not focus on
                 reaching poor people.

                 In accordance with USAID’s Automated Directives System, Chapter 219, which
                 provides policy on microenterprise development, USAID/Jordan’s microfinance
                 activities benefited women and poor people. In addition, three of four Mission-
                 supported microfinance institutions had reached full financial sustainability1.
                 Further, the Mission had ensured that each of its microfinance institutions had
                 annual audits of their financial statements. Some specific accomplishments for
                 calendar year 2002 included the following2:

                 •   82 percent of the number of loans disbursed went to women, indicating that
                     the Mission’s activities were formally and effectively open to women in
                     accordance with USAID policy. The percentage also indicated that the
                     Mission’s activities were targeting and reaching women.

                 •   44 percent of the number of loans disbursed went to poor people via poverty
                     loans (i.e., loans of $350 or less)3, indicating that the Mission’s activities were
                     benefiting poor people in accordance with USAID policy. USAID uses a
                     proxy indicator to define the poor as individuals who received a poverty loan.

                 •   20,134 loans totaling 12.1 million Jordanian Dinar ($17.3 million) were
                     disbursed to microentrepreneurs. These statistics indicated that the Mission’s
                     activities had broad outreach as called for by USAID’s Microenterprise
                     Development Policy Paper.

                 •   Three of four Mission-supported microfinance institutions had reached
                     financial sustainability as of the end of calendar year 20021. Per USAID
                     policy, microfinance institutions are supposed to be committed to achieving
                     full financial sustainability.

                 •   The Mission had ensured that all required financial audits of its microfinance
                     institutions had, in accordance with Automated Directives System, Chapter
                     591, been performed.


                 1
                   Based on unaudited financial information.
                 2
                   Appendix I explains the methodology used to validate these accomplishments. Appendix III
                 provides a breakdown of these statistics by microfinance institution.
                 3
                   Because poverty loans are issued in small amounts, poverty lending only represented 14 percent
                 of the amount of loans disbursed during calendar year 2002.


                                                                                                           7
Although 44 percent of the overall number of loans disbursed during calendar year
2002 went to poor people via poverty loans, two of the four microfinance
institutions had not issued any poverty loans and a third institution had issued only a
small percentage of loans as poverty loans. Hence, these three institutions did not
focus on reaching the poor. This issue is discussed below.

Three Microfinance Institutions
Did Not Focus On Poor People

U.S. law and USAID policy have a principal focus on reaching the poor with
microenterprise development resources, but three of four USAID/Jordan-supported
microfinance institutions had not focused their resources on reaching poor people.
This occurred because USAID policy provides missions flexibility in structuring
lending programs and the extent to which these programs target the poor.
Consequently, although the three institutions were assisting entrepreneurs, they were
not focused on assisting poor entrepreneurs.

The Microenterprise and Self Reliance Act of 2000 requires USAID to target 50
percent of all microenterprise resources to very poor entrepreneurs. USAID’s
Automated Directives System provides a $350 poverty loan standard for loans made
during 2002 in the Near East, and USAID uses this standard as an indicator to
determine whether a loan was made to a poor person.

The Act’s 50 percent funding target applies at the Agency level and not at the
mission level. Therefore, USAID allows missions to choose the 50 percent target
or a more or less stringent one. Per USAID’s Office of Microenterprise
Development, the extent to which a mission devotes its resources on poor
entrepreneurs ideally needs to be made on technical grounds, considering a
country’s economic situation; the state of development of the country’s
microfinance sector; and the Mission’s approach towards targeting by
geographical, demographical, or sector means.

Although missions have flexibility with the 50 percent poverty lending target, two of
four microfinance institutions that received funds from USAID/Jordan had not
issued any poverty loans during calendar year 2002 and only 16 percent of a third
institution’s loans qualified as poverty loans. Although these three institutions were
assisting microentrepreneurs, they were not focused on using USAID resources to
benefit poor entrepreneurs, who are supposed to be a principal part of USAID’s
microenterprise development efforts.

USAID/Jordan officials explained that the Mission's microfinance strategy had a
two-pronged approach: first, to support grassroots institutions that are capable of
providing broad outreach in poverty lending and, second, to support bank-related
institutions interested in deepening their outreach. They said that the Microfund
for Women was the principal example of a grassroots program with an average
loan size of $200 and pointed out that their loan program represented over 80



                                                                                 8
percent of the number of loans disbursed by the Mission's microfinance
institutions in calendar year 2002. They also explained that the Ahli Microcredit
Company was an example of a bank-owned institution that had initiated
microfinance activity and that its lending activities covered the gap between
poverty loans and commercial loans needed by enterprises to grow their
businesses.

Further, the Mission officials said that, although Ahli Microcredit Company’s
focus was not specifically in poverty lending, its role as a subsidiary of a
commercial bank was creating a link between microentrepreneurs and the formal
banking sector. Overall, the officials said these two reinforcing approaches were
designed with the intent of creating a sustainable microfinance industry in Jordan
that served the poor and met the needs of microentrepreneurs in Jordan.

Based on the Mission’s explanation of its microfinance program and because, as
previously stated, missions have flexibility in structuring their lending programs and
the extent to which they target the poor, we did not make a recommendation on
targeting more poor beneficiaries.


Had USAID/Jordan’s microfinance activities progressed towards their
intended results?

USAID/Jordan’s microfinance activities had mixed results during calendar year
2002.

USAID/Jordan’s strategic objective team for expanded economic opportunities
had two primary performance indicators to track the performance of its
microfinance activities: number of borrowers and the percentage of repeat
borrowers. As illustrated in Table 1 below, USAID/Jordan’s microfinance
activities fell short of one of their 2002 targets, but exceeded the second.

  Table 1. Comparison of Actual Accomplishments to Planned Targets

        Performance            2002       2002                    Percentage
         Indicator            Target     Actual    Difference     Difference

    Number of Borrowers       18,000     14,251       3,749          -21%


    Percentage of Repeat
                               54%        55%          1%            +2%
    Borrowers

Mission officials reported that they had exceeded their 2002 target for the number
of borrowers by 1,000 and thus, were not aware that they had actually fallen short
of their target. They were not aware of the actual number of borrowers because


                                                                                9
they had not verified lending results reported to them by four USAID-supported
microfinance institutions. This issue is discussed below.

USAID/Jordan Needs To Perform Data Quality
Assessments Of Reported Microfinance Results

Contrary to USAID policy, USAID/Jordan did not perform a data quality
assessment of lending results reported by microfinance institutions.
Consequently, the Mission included inaccurate microfinance statistics in its 2003
Annual Report. The error primarily occurred because strategic objective team
officials were unaware of the requirement to perform data quality assessments of
results reported to them by Mission-supported microfinance institutions.

Automated Directives System Chapter 203.3.5.2 discusses data quality
assessments and states that data reported to USAID/Washington for reporting
externally on Agency performance must have had a data quality assessment
within the three years before submission. It also says that the purpose of a data
quality assessment is to ensure that the operating unit and strategic objective team
are aware of the strengths and weaknesses of the data being reported and are
aware of the extent to which the data can be trusted to influence management
decisions. Further, it explains that a data quality assessment involves applying the
following five data quality standards to performance data: validity, integrity,
precision, reliability, and timeliness.

Contrary to the above requirements, USAID/Jordan reported in its 2003 Annual
Report microfinance lending statistics, which had not had data quality
assessments. Consequently, the Mission reported inaccurate statistics for its
microfinance activities.

For example, the 2003 Annual Report included the following statements:

      •    “The Mission’s four USAID-affiliated microfinance institutions had
           reached 19,128 microentrepreneurs, over 1,000 more people than the
           planned figure of 18,000.”; and

      •    “AMIR4 continues to support three microfinance providers within Jordan
           who have, on average, an 80 percent female client base.”

However, as shown in Table 2 below, the four microfinance institutions had
14,251 borrowers instead of 19,128, and the three AMIR-supported microfinance
institutions had a female client base of 88 percent instead of 80 percent.




4
    Achievement of Market-Friendly Initiatives and Results Program.


                                                                             10
        Table 2. Comparison of Reported vs. Verified Amounts
                                   2002
                         2002       Per                 Percentage
 Performance Indicator Reported Audit Difference Difference

 Number of Borrowers         19,128     14,251      4,877          -25%

 Female Clients of Three
 AMIR-Supported               80%        88%          8%          +10%
 Institutions

The differences between the above results occurred because all four microfinance
institutions had mistakenly reported on the number of loans they had issued
instead of reporting on the number of borrowers. That is, because some
borrowers had taken out more than one loan during the year, the number of loans
issued during 2002 exceeded the number of borrowers. Hence, use of the number
of loans issued instead of the number of borrowers caused the Mission to over
report its number of borrowers and to miscalculate the percentage of loans made
to females.

The errors in the results reported by the microfinance institutions were not
detected by USAID/Jordan for two reasons. First, the Mission’s strategic
objective team officials were unaware of the requirement to assess the quality of
data reported by the microfinance institutions, and second, USAID/Jordan did not
have a management control to ensure that a data quality assessment of
microfinance activity results had been performed before placing the statistics in
the Mission’s 2003 Annual Report. Had an assessment of the quality of data
reported by the four microfinance institutions been performed, Mission officials
likely would have discovered that the institutions had mistakenly reported on the
number of loans disbursed instead of the number of borrowers and would have
taken action to address it.

The reporting of unverified microfinance results could lead managers at
USAID/Jordan and USAID/Washington, as well as decision makers outside of
USAID, to make improper conclusions and programmatic decisions.

       Recommendation No. 1: We recommend that the Director,
       USAID/Jordan perform a data quality assessment of
       microfinance results before using such results in the Mission’s
       2004 Annual Report.

       Recommendation No. 2: We recommend that the Director,
       USAID/Jordan develop a procedure to verify that results
       included in the Mission’s Annual Report have had data quality
       assessments.


                                                                          11
Management       In response to our draft report, USAID/Jordan agreed with the audit
Comments and     recommendations. Appendix II presents the response in its entirety.
Our Evaluation
                 In regards to Recommendation No. 1, the Mission said that it had issued an
                 administrative notice, summarizing key references from the Automated Directives
                 System on performance measurement quality, and requesting strategic objective
                 teams to conduct data quality assessments for all indicators used in its annual report.
                 In addition, the Mission said that it had initiated a data quality assessment for
                 microfinance results. Based on the Mission’s comments, a management decision
                 has been made on Recommendation No. 1.

                 In regards to Recommendation No. 2, USAID/Jordan said that procedures for data
                 quality assessments had been prepared and issued by the Mission. Based on our
                 review of the procedures, we consider that final action on Recommendation No. 2
                 has occurred.




                                                                                                 12
                                                                                        Appendix I




Scope and     Scope
Methodology
              We performed our audit in accordance with generally accepted government auditing
              standards and assessed USAID/Jordan’s compliance with Automated Directives
              System Chapter 219 titled “Microenterprise Development” and USAID’s
              Microenterprise Development Policy Paper. The audit also assessed whether
              USAID/Jordan’s microfinance development activities had progressed towards their
              intended results for calendar year 2002.

              We performed our fieldwork at USAID/Jordan’s office in Amman, Jordan and at four
              microfinance institutions located in Amman. We also performed site visits to the
              institutions’ branch offices and borrowers in various cities including: Amman,
              Madaba, Kerak, Tafeela, Aqaba, Jerash, and Irbid, Jordan. Fieldwork was performed
              from January 21 to June 16, 2003.

              The audit scope included:

              •   Controls over the issuance of loans made by four microfinance organizations.
              •   A universe of 20,134 loans totaling $8.5 million in disbursements made during
                  calendar year 2002.
              •   Tests of 84 loans with disbursements totaling $226,416.
              •   Documentation supporting 84 microenterprise loans.
              •   Interviews with 69 borrowers.

              Methodology

              To determine the accuracy of USAID/Jordan’s database of 20,134 loans, we chose a
              90 percent confidence level and assumed an error rate of 5 percent. We then
              randomly selected 84 loans to test. To assist us with our testing, we hired an
              Independent Public Accounting firm.

              Our tests included reviewing 84 loan applications to determine whether they had been
              signed by the borrower and a loan officer and approved by someone other than the
              loan officer. Our tests also compared information listed on the borrower’s loan
              application, such as the borrower’s name, gender, and loan amount, to that which was
              recorded in the microfinance organization’s loan database. Further, we interviewed
              the 69 borrowers in our sample to determine whether (a) the amount of their loan
              matched the amount recorded in the microfinance organization’s loan database, (b)
              they were a repeat borrower, and (c) they had 10 or fewer employees, which would
              qualify them for a microenterprise business loan.

              Our tests revealed that 1 of the 84 sampled loans (1.2 percent) was invalid because
              the borrower had more than 10 employees, and thus did not qualify for a
              microenterprise loan. Given that the error rate in our statistical sample was less than


                                                                                                  13
                                                                           Appendix I

five percent, we concluded with a 90 percent confidence level that the error rate in the
database of 20,134 loans was also less than five percent.

Since this error rate fell below our five percent materiality level, we also concluded
that we could generate reliable microfinance lending statistics from the loan database.
We then compared these statistics to USAID/Jordan’s planned targets for 2002 to
determine whether microfinance development activities had progressed towards their
intended 2002 targets. We also used the statistics to determine the extent to which
USAID/Jordan’s microfinance activities were benefiting women and the poor.




                                                                                     14
                                                                                             Appendix II


Management
Comments




OFFICE OF THE DIRECTOR
                                                                    August 13, 2003

To:       Darryl T. Burris, RIG/Cairo

From:     David Barth, Acting Director, USAID Jordan /s/

Subject: Audit of USAID/Jordan’s Microfinance Activities
         (Report No. 6-XXX-03-XXX-P)


Thank you for the draft of the subject report. Our comments are as follows:

Recommendation No. 1: We recommend that the Director, USAID/Jordan, require Mission officials to
perform a data quality assessment of the microfinance results before using such results in the Mission’s
2004 Annual Report.

Action to be taken: Mission is in full agreement with this recommendation. The Mission has issued an
administrative notice dated August 3, 2003 summarizing the key references on performance
measurement quality found in various parts of the ADS and requested the SO teams to conduct data
quality assessments for all indicators used in the annual report. The data assessments will be conducted
by the Mission for all indicators to be used in the Annual Report in the first quarter of FY 2004.
Additionally, we are initiating the data quality assessment for microfinance results forthwith as indicated
in the attached memo.

Recommendation No. 2: We recommend that the Director, USAID/Jordan, require the Program Office
to develop a procedure to verify that the results included in the Mission’s annual report have had data
quality assessments.

Action to be taken: Procedures for data quality assessments have already been prepared and issued by
the Mission. We have included a copy of the Mission Notice for your information. Please show this
recommendation as closed in your final report.

We wish to thank you and your staff for the excellent coordination and collaboration during this audit.

USAID / AMERICAN EMBASSY, P.O. BOX 354, AMMAN 11118, JORDAN, PHONE: 5920101, FAX: 5920143
                    USAID, UNIT 70206, APO AE 09892 - 0206



                                                                                                          15
(“This page intentionally left blank.”)




                                          16
                                                                                                                               Appendix III



                     Summary of USAID/Jordan’s Microfinance Results for Calendar Year 2002

                                                                                                                   Number        Amount of
                                                                                           Number     Number of   of Poverty      Poverty
                            Amount         Number      Number     Number of   Number of    of Male     Female       Loans          Loans
Microfinance   Number      Disbursed          of       of Male     Female      Repeat      Repeat      Repeat       (under       Disbursed
 Institution   of Loans   ($1 = JD 0.7)   Borrowers   Borrowers   Borrowers   Borrowers   Borrowers   Borrowers      $350)      (JD 0.7 = $1)
AMC1              697     $3,023,404           686         476         210         252         145         107           0                0
CHF2            1,495      4,368,859         1,448         992         456         271         110         161         239          $42,233
JMCC3           1,618      3,345,750         1,522       1,096         426         932         656         276           0                0
MFW4           16,324      6,608,071        10,595           0      10,595       6,400           0       6,400       8,562       $2,301,643

Totals         20,134 $17,346,084           14,251       2,564      11,687       7,855         911       6,944       8,801       $2,343,876


The acronyms listed above under “Microfinance Institution” are defined as follows:
1
  AHLI Microfinancing Company.
2
  Cooperative Housing Foundation.
3
  Jordan Micro Credit Company.
4
  Microfund for Women.




17
